                            OIG Recovery Act Monthly Report

                     AMTRAK OFFICE OF INSPECTOR GENERAL


                               UPCOMING TRAINING ACTIVITIES
                                                          Training       Length of                 Available
      Date of    Type of     Target                                                   Number of
No.                                  Title of Training Location (City,    Training                to Provide
      Training   Training   Audience                                                 Participants
                                                           State)         (hours)                  Training
1
2
3
4
5
6
7
8
9
10


                               UPCOMING OUTREACH ACTIVITIES

             Organizat  Number of
              ion to   Organizations                      Outreach                   Available to
     Date of                         Description of                      Number of
No.           which Represented at                      Location (City,               Provide
    Outreach                           Outreach                         Participants
             Outreach    Outreach                           State)                    Outreach
             Provided    Session

1
2
3
4
5
6
7
8
9
10



                                                                                                               Training Page
